HHS/OIG, Audit -"Review of Medicaid School Based Child Health Services Costs Claimed by Connecticut Department of Social Services October 1999 - September 2000,"(A-01-01-00006)
Department of Health
and Human Services
"Review of Medicaid School Based Child Health Service Costs Claimed by Connecticut Department of Social Services
October 1999 - September 2000," (A-01-01-00006)
May 9, 2002
Complete
Text of Report is available in PDF format (2.4 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Connecticut Department of Social Services (State agency) reimburses local educational agencies (LEAs) for Medicaid
School Based Child Health (SBCH) services on the basis of statewide bundled rates.  However, our review of LEA documentation
supporting random samples of SBCH claims paid to two LEAs disclosed that about 80 percent of the recipients received only
about one-half of the total amount of SBCH treatment services recommended in their Individualized Education Plans (IEPs).  As
a result, we have no assurance that all Federal Medicaid funds earmarked for SBCH services are being spent by LEAs on all
recommended health related activities for Medicaid eligible children.  We found that the State agency has not developed
any formalized procedures to coordinate the delivery of SBCH services with the State Department of Education (SDE) and
LEAs to ensure that Medicaid eligible children are receiving services in accordance with their IEPs.  In addition,
we believe that utilizing bundled rates for reimbursement of SBCH services can also create an incentive to reduce costs
by limiting services provided to eligible recipients.  We recommended that the State agency coordinate the delivery
of SBCH services to ensure that they are provided in accordance with all recommended services included in the IEPs, and
establish procedures to periodically monitor the LEAs to ensure that Medicaid recipients are receiving all recommended
services.